Elizabeth Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Jacob Matthew Lewis
Sarah Citrin
Scott M. Noveck
Federal Communications Commission
Office of General Counsel, Litigation Division, Room 8-A765
45 L Street NE
Washington, DC 20554
Counsel for the Federal Communications Commission
Andrew C. Finch
Michael F. Murray
Robert B. Nicholson
Adam D. Chandler
U.S. Department of Justice, Room 3312
950 Pennsylvania Avenue, NW
Washington, DC 20530
Counsel for United States of America
Christopher J. Wright
Harris, Wiltshire & Grannis LLP
Eighth Floor
1919 M Street, NW
Washington, DC 20036
Counsel for Sprint Corporation
Jonathan Meltzer
Munger, Tolles & Olson LLP
601 Massachusetts Avenue, NW
Suite 500
Washington, DC 20001-5369
Counsel for Petitioner Verizon Communications, Inc.

Helgi C. Walker
Matthew Gregory
Gibson, Dunn & Crutcher LLP
3rd Floor
1050 Connecticut Avenue, N.W.
Washington, DC 20036
Counsel for Verizon
Henry Weissmann
Munger, Tolles & Olson LLP
350 South Grand Avenue
50th Floor
Los Angeles, CA 90071
Counsel for Verizon Communications, Inc.
Jeremy Joseph Broggi
Megan L. Brown
Christopher Huther
Claire Evans
Frank Scaduto
Wiley Rein LLP
1776 K Street, NW
Washington, DC 20006
Counsel for Puerto Rico Telephone Company, Inc.; U.S. Telecom—The Broadband Association
Sara Baxenberg
Joshua Scott Turner
Wiley Rein LLP
1776 K Street, NW
Washington, DC 20006
Counsel for CTIA—The Wireless Association
Jennifer Phurrough Bagg
Harris, Wiltshire & Grannis LLP
1919 M Street, NW
Washington, DC 20036
Counsel for Competitive Carriers Association

Thomas Scott Thompson
Mintz Levin Cohn Ferris Glovsky & Popeo, PC
701 Pennsylvania Avenue, NW
Suite 900
Washington, DC 20004
Counsel for Wireless Infrastructure Association

eoffrey Morris Klineberg
Kellogg, Hansen, Todd, Figel & Frederick, P.L.L.C.
1615 M Street NW
Suite 400
Washington, DC 20036
Counsel for AT&T Services, Inc.
Kenneth S. Fellman
Kissinger & Fellman, P.C.
Ptarmigan Place
37673 Cherry Creek N. Drive
Suite 900
Denver, CO 80209
Counsel for City of Coconut Creek, Florida; City of Lacey, Washington; City of Olympia,
Washington; City of Seattle, Washington; City of Tacoma, Washington; City of Tumwater,
Washington; Colorado Communications and Utility Alliance; King County Washington; Rainier
Communications Commission; County of Thurston, Washington; Town of Yarrow Point,
Washington

Robert Carroll May, III
Michael Johnston
Telecom Law Firm, PC
3570 Camino del Rio N.
Suite 102
San Diego, CA 92108
Counsel for City of Bakersfield, California; City of Coconut Creek, Florida; City of Fresno,
California; City of Lacey, Washington; City of Olympia, Washington; City of Rancho Palos
Verdes, California; League of Oregon Cities; League of California Cities; League of Arizona
Cities and Towns

Michael Watza
Kitch Drutchas Wagner Valitutti & Sherbrook
Suite 2400
One Woodward Avenue
Detroit, MI 48226
Counsel for Michigan Municipal League; Bloomfield Township, Michigan; Meridian Township,
Michigan; Michigan Townships Association; Michigan Coalition to Protect Public Rights-of-Way
Scott F. Field
Michael J. Vigliotta
Office of the City Attorney
City of Huntington Beach
2000 Main Street
P.O. Box 190
Huntington Beach, CA 92648
Counsel for City of Huntington Beach
Arthur S. Garrett
Eric P. Gotting
Keller & Heckman LLP
1001 G Street, N.W.
Suite 500 West
Washington, DC 200001
Counsel for Montgomery County, Maryland
Amanda Kellar
International Municipal Lawyers Association
51 Monroe Street
Suite 404
Rockville, MD 20850
Counsel for International City/County Management Association; International Municipal Lawyers
Association
Elina Druker
New York City Law Department 6th Floor
100 Church Street New York, NY 10007
Counsel for City of New York, New York

Nancy Werner
National Association of Telecommunications Officers and Advisors
3213 Duke Street
Suite 695
Alexandria, VA 22314
Counsel for National Association of Telecommunications Officers and Advisors
James Baller
Sean Stokes
Keller & Heckman LLP
1001 G Street, N.W.
Suite 500 West
Washington, DC 20001
Counsel for American Public Power Association
Delia D. Patterson
Dewey & LeBoeuf, LLP
1101 New York Ave., NW
Washington, DC 20005
Counsel for American Public Power Association
Eric Brandon Langley
Robin Franco Bromberg
Langley & Bromberg LLC
2700 U.S. Highway 280
Suite 240e
Birmingham, AL 35223
Counsel for American Electric Power Service Corporation; Duke Energy Corporation; Entergy
Corporation; Oncor Electric Delivery Company, LLC; Southern Company; Tampa Electric
Company
Brett Heather Freedson
David Rines
Kevin Cookler
Lerman Senter PLLC
2001 L Street, N.W.
Suite 400
Washington, DC 20036
Counsel for Centerpoint Energy Houston Electric, LLC; Virginia Electric and Power Company;
Xcel Energy Services

Robert James Gastner
Eckert Seamans Cherin & Mellott, LLC
1717 Pennsylvania Avenue NW
12th Floor
Washington, DC 200006-4604
Counsel for Centerpoint Energy Houston Electric, LLC; Virginia Electric and Power Company

Counsel for the following respondents are also represented by counsel for the petitioners, Joseph
Van Eaton, Best Best & Krieger LLP, and have therefore been served:
City of Arcadia, California; City of Austin, Texas; City of Baltimore, Maryland; City of Burien,
Washington; City of Burlingame, California; City of College Park, Maryland; City of Dubuque,
Iowa; City of Emeryville; City of Issaquah, Washington; City of La Vista, Nebraska; City of Las
Vegas, Nevada; City of Medina, Washington; City of Myrtle Beach, South Carolina; City of
Ontario, California; City of Papillion, Nebraska; City of Rockville, Maryland; City of San Jacinto,
California; City of Scarsdale, New York; City of Seat Pleasant, Maryland; League of Nebraska
Municipalities; City of Shafter, California; City of Sugarland, Texas; City of Takoma Park,
Maryland; City of Yuma, Arizona; County of Anne Arundel, Maryland; County of Los Angeles,
California; Town of Ocean City, Maryland.
Counsel for the following respondents are also represented by counsel for the petitioners, Tillman
Lay, Spiegel & McDiarmid LLP, and therefore have been served:
Counsel for County of Marin, California; City of Westminster, Maryland; Contra Costa County,
California; Town of Corte Madera, California

